Report No. D-2011-119                September 30, 2011





       American Recovery and Reinvestment Act — 

     Improper Planning of the Administrative Buildings 

         Project at Camp Lejeune, North Carolina

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
HQMC                          Headquarters, U.S. Marine Corps
MCO                           Marine Corps Order
NAVFAC                        Naval Facilities Engineering Command
NEPA                          National Environmental Policy Act
OMB                           Office of Management and Budget
PWD                           Public Works Division
QMD                           Quantitative Methods Division
REIR                          Request for Environmental Impact Review
SABRS                         Standard Accounting, Budgeting, and Reporting System
                                        INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON , VIRGIN IA 22202- 4704

                                                                                      SEP S 0 2011
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               MARINE CORPS INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND
               COMMANDING OFFICER, MARINE CORPS BASE
                 CAMP LEJEUNE

SUBJECT: American Recovery and Reinveslment Act- Improper Planning of the
         Administrative Buildings Project al Camp Lejeune, Norlh Carolina
         (Reporl No. D-20 11-119)

We are providing this report for review and comment. Camp Lejeune ofiicials did not properly plan
the project. Camp Lejeunc Public Works Division officials prepared project documentation without
sufficient justification. Specifically, Public Works Division officials did not properly complete DO
Form 1391 s, "Military Construction Project Data;" did not retain documents to support $20.5 million
iu repairs; did not develop complete and reliable economic analyses; and did not prepare required
documents to support the project's exclusion from environmental requirements. Additionally,
Headquarters, U.S . Marine Corps officials did not rcvalidate the project. AllllOugh Headquarters,
U.S. Marine Corps officials distributed Funds, Naval Facilities Engineering Command Mid-Atlantic
contracting officials over-obligated the Administrativc Buildings Project by $37,015, which rcsulted
in a potential Antideticiency Acl violation. We considered management eommenls on a dral1 of thi s
report when prepariug the final report.

000 Directive 7650.3 requires that all recommendations be resolved promptly. We received
comments from the Assistant Secretary of the Navy (Financiallvlanagement and Comptroller),
on behalf of the Deputy Commandant, Installations and Logi stics; Deputy Commandant,
Programs and Resources; and the Commanding Omcer, Marine Corp Base Camp Lejeunc. The
Assi stant Secretary of thc Navy comments to Recommendations A.I.a, A.I .b were partially
responsive. Her comments to Rccommendation A.2, B.I.a, B.I.b, and B.2 were responsive but
she did not provide a complction date for the planned actions for Recommendation B.l.a. We
request the Assi stant Secretary of the Navy provide additional comments on Recommendations
A.I.a, A.I.b, and an estimated completion date for the planned aclions for
Recommendation B.l.a by October 31,20 I I.

If possible, plcase send a .pdffile containing your conuncnts to audros@dodivniJ. Copies of the
management commcnts must contain the actual signature of the anthorizing official for your
organization. We are unable to accept the IS igne<Vsymbol in place of the actual signature. If you
arrange to send classified comments electronically, youmllst send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-8866
CDSN 312-664-8866).



                                              Alice F. Carey
                                              Assistant Inspector General
                                              Readiness, Operations, and Support
THIS PAGE INTENTIONALLY LEFT BLANK 

 Report No. D-2011-119 (Project No. D2010-D000LH-0050.000)                       September 30, 2011


                 Results in Brief: American Recovery and
                 Reinvestment Act—Improper Planning of the
                 Administrative Buildings Project at Camp
                 Lejeune, North Carolina
What We Did                                                  What We Recommend
Our objective was to determine whether DoD ensured           We recommend the Commanding Officer, Marine
the appropriate use of Recovery Act funds by                 Corps Base Camp Lejeune, require Public Works
adequately planning, funding, initially executing, and       Division officials to track and assess the completion
tracking and reporting the Administrative Buildings          of DD Form 1391s, economic analyses, and National
Project, valued at $21.7 million.                            Environmental Policy Act reviews in accordance with
                                                             Marine Corps Order P11000.5G, “Real Property
What We Found                                                Facilities Manual, Volume IV, Facilities Project
                                                             Manual,” September 30, 2004. We recommend the
Camp Lejeune officials did not properly plan the             Deputy Commandant, Installations and Logistics,
project. Camp Lejeune Public Works Division                  assess Camp Lejeune’s projects that were validated
officials prepared project documentation without             before the issuance of Marine Corps
sufficient justification. Specifically, Public Works         Order P11000.5G, but that have not yet been funded
Division officials did not:                                  to determine whether it is necessary to revalidate
                                                             those projects. Additionally, we recommend the
•	 properly complete DD Form 1391s, “Military                Deputy Commandant, Programs and Resources,
   Construction Project Data;”                               conduct a preliminary review of the potential
•	 retain documents to support $20.5 million in              Antideficiency Act violation for the project.
   repairs;
•	 develop complete and reliable economic analyses;
   and
                                                             Management Comments and
•	 prepare required documents to support the                 Our Response
   project’s exclusion from environmental                    The Assistant Secretary of the Navy (Financial
   requirements.                                             Management and Comptroller) responded on behalf
                                                             of the Commanding Officer, Marine Corps Base
Additionally, Headquarters, U.S. Marine Corps                Camp Lejeune, the Deputy Commandant, Programs
officials did not revalidate the project. As a result,       and Resources, and the Deputy Commandant,
DoD lacked reasonable assurance that Recovery Act            Installations and Logistics, to a draft of this report
funds were appropriately used.                               issued on August 17, 2011. The Assistant Secretary’s
                                                             comments to Recommendations A.2, B.1.a, B.1.b,
Although HQMC officials distributed funds, Naval             and B.2 were responsive but did not provide a
Facilities Engineering Command (NAVFAC) Mid-                 completion date for the planned actions for
Atlantic contracting officials over-obligated the            Recommendation B.1.a. The Assistant Secretary’s
Administrative Buildings Project by $37,015, which           comments to Recommendations A.1.a and A.1.b were
resulted in a potential Antideficiency Act violation.        partially responsive. We request the Navy provide
However, NAVFAC Mid-Atlantic contracting                     additional comments on Recommendations A.1.a
officials initially executed and tracked and reported        and A.1.b, and provide a completion date for the
the Administrative Buildings Project.                        planned actions for Recommendation B.1.a by
                                                             October 31, 2011. Please see the recommendations
                                                             table on page ii.



                                                         i
Report No. D-2011-119 (Project No. D2010-D000LH-0050.000)           September 30, 2011

Recommendations Table

Management                     Recommendations              No Additional Comments
                               Requiring Comment            Required
Deputy Commandant,                                          A.2
Installations and Logistics

Deputy Commandant, Programs    B.1.a                        B.1.b
and Resources

Commanding Officer, Marine     A.1.a, A.1.b                 B.2
Corps Base Camp Lejeune


Please provide comments by October 31, 2011.




                                          ii
Table of Contents 


Introduction	                                                                  1     


      Objective                                                                1     

      Recovery Act Background                                                  1

      DoD Recovery Act Program                                                 2

      Review of Internal Controls                                              2


Finding A. Camp Lejeune Public Works Division Officials Did Not Properly

             Plan the Administrative Buildings Project                         3


      Planning Documentation Did Not Justify the Administrative Buildings 

         Project                                                               3

      Recovery Act Funds Were Distributed, but the Administrative 

         Buildings Project Was Over-Obligated                                  7

      Initial Execution of the Administrative Buildings Project 

          Was Performed                                                        8

      Processes Were in Place to Track and Report the Administrative 

          Buildings Project                                                    9

      Recommendations, Management Comments, and Our Response                   9



Finding B. Untimely Recording of Contract Modifications Caused 

            Over-Obligation of the Administrative Buildings Project           11 


      Antideficiency Act Prohibits Over-Obligation                            11 

      Delays in Recording Obligations Led to Improper Certification 

         of Funds and Over-Obligation                                         11 

      Recommendations, Management Comments, and Our Response                  13 



Appendices

      A. 	Scope and Methodology                                               15 

             Use of Computer-Processed Data                                   16 

             Use of Technical Assistance                                      16 

             Prior Audit Coverage                                             16     

      B. Recovery Act Criteria and Guidance 	                                 17 


Management Comments

      Department of the Navy 	                                                19

THIS PAGE INTENTIONALLY LEFT BLANK 

Introduction
Objective
Our objective was to evaluate DoD’s implementation of Public Law 111-5, “American
Recovery and Reinvestment Act of 2009” (Recovery Act), February 17, 2009, by
determining whether DoD Components met the requirements in the Act, Office of
Management and Budget (OMB) Memorandum M-09-15, “Updated Implementing
Guidance for the American Recovery and Reinvestment Act of 2009,” April 3, 2009, and
subsequent related guidance. Specifically, we determined whether DoD ensured the
appropriate use of Recovery Act funds by adequately planning, funding, initially
executing, and tracking and reporting Project LE02ADMM, “Repair
HVAC/Mechanical/Electrical/Roofs and Windows Various Admin Facs” (Administrative
Buildings Project), valued at $21.7 million. See Appendix A for a discussion of our
scope and methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Criteria for planning and implementing the Recovery Act are
listed in Appendix B.

On April 3, 2009, OMB issued Memorandum M-09-15 to provide Government-wide
guidance and requirements for the implementation of the Recovery Act. The guidance
and requirements are intended to meet accountability goals: (1) funds are awarded and
distributed in a prompt, fair, and reasonable manner; (2) the recipients and uses of all
funds are transparent to the public, and the public benefits of these funds are reported
clearly, accurately, and in a timely manner; (3) funds are used for authorized purposes
and instances of fraud, waste, error, and abuse are mitigated; (4) projects funded under
the Recovery Act avoid unnecessary delays and cost overruns; and (5) program goals are
achieved, including specific program outcomes and improved results on broader
economic indicators.




                                           1

DoD Recovery Act Program
DoD received approximately $7.16 billion1 in Recovery Act funds to use for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which list DoD projects that will receive Recovery Act funds. The
Department of the Navy received approximately $1.2 billion in Recovery Act funds for
Operations and Maintenance; Military Construction; and Research, Development, Test,
and Evaluation. Of the approximately $1.2 billion appropriated, Headquarters,
U.S. Marine Corps (HQMC) officials allocated approximately $21.7 million (Operations
and Maintenance) to support the Administrative Buildings Project.

According to an HQMC official, in FY 2009 they selected six Camp Lejeune projects2
for Recovery Act funding. The official stated that these projects, planned by officials
from the Camp Lejeune Public Works Division (PWD) and validated by HQMC in
FY 2000, were unfunded. The official further stated that when Recovery Act funds
became available, HQMC officials combined them into the Administrative Buildings
Project because they were similar and the combination facilitated administration.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
(the Instruction), July 29, 2010, requires DoD organizations to implement a
comprehensive system of internal controls that provides reasonable assurance programs
are operating as intended and to evaluate the effectiveness of the controls. We identified
internal control weaknesses related to the project’s planning and funding. Specifically,
PWD officials did not complete DD Form 1391s, “Military Construction Project Data”
(DD Form 1391), did not have documentation supporting about $20.5 million in repairs,
did not develop complete and reliable economic analyses, and did not prepare
documentation to support environmental reviews. Also, Headquarters, HQMC officials
did not revalidate the project. We also identified that NAVFAC Mid-Atlantic officials
over-obligated funding for the project. Additionally, neither NAVFAC Mid-Atlantic nor
Camp Lejeune officials recorded contract modifications timely into the Standard
Accounting, Budgeting, and Reporting System (SABRS), and these lapses caused a
potential violation of the Antideficiency Act under section 1517(a), title 31, United States
Code (31 U.S.C. § 1517[a] [1982]). We will provide a copy of the report to Senior Navy,
HQMC, and Camp Lejeune officials responsible for internal controls.




1
  DoD originally received $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded 

$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S. Army Corps of 

Engineers civil works projects. 

2
  Six repair projects were for buildings 118, 205, 213, 312, 313, and 417. 


                                                    2

Finding A. Camp Lejeune Public Works
Division Officials Did Not Properly Plan the
Administrative Buildings Project
Camp Lejeune PWD officials prepared project documentation without sufficient
justification. Specifically, PWD officials did not:

    •	   properly complete DD Form 1391s;
    •	   retain documents to support $20.5 million in repairs;
    •	   develop complete and reliable economic analyses; and
    •	   prepare required documents to support the project’s exclusion from environmental
         requirements.

Additionally, HQMC officials did not revalidate the project requirements even though it
was planned and unfunded for 9 years. As a result, DoD lacked reasonable assurance that
Recovery Act funds were appropriately used.

Although HQMC officials distributed funds, Naval Facilities Engineering Command
(NAVFAC) Mid-Atlantic contracting officials over-obligated the Administrative
Buildings project (see Finding B). However, NAVFAC Mid-Atlantic contracting
officials initially executed and tracked and reported the Administrative Buildings Project.


Planning Documentation Did Not Justify the
Administrative Buildings Project
Marine Corps Guidance Requires Project Documentation
Marine Corps Order (MCO) P11000.5G, “Real Property Facilities Manual, Volume IV,
Facilities Projects Manual,” September 30, 2004, states that project documentation is a
critical first step in addressing all factors related to the facility requirement. The MCO
implements “Repair of Facilities,” section 2811, title 10, United States Code (10 U.S.C.
§ 2811 [2004]). According to the MCO, project documentation for all projects that cost
more than $2 million should include an approved DD Form 1391, an economic analysis,
and a review required by the National Environmental Policy Act of 1969 (NEPA), section
4332, title 42, United States Code.3 The DD Form 1391 must contain a project
justification with an adequate description of the requirement. Additionally, supporting
documentation (such as studies and photographs) should fully explain the scope,
complexity, and urgency of a project. MCO P11000.5G also states that installation
commanders must ensure that all project documents are complete, current, and accurate.



3
 NEPA reviews must comply with MCO P5090.2A, “Environmental Compliance and Protection Manual,”
January 22, 2008.

                                              3

Additionally, installations must retain all project documents for at least 3 years after the
last contract action.

DD Form 1391s Did Not Adequately Describe the Requirement
PWD officials did not properly complete DD Form 1391s to support major interior and
exterior repairs for each building. In early FY 2000, PWD officials prepared
DD Form 1391s for the Administrative Buildings Project. In FY 2008, PWD officials
revised those forms, but their revisions were not adequate. Specifically, although PWD
officials described the proposed construction in detail, they did not address replacing the
heating, ventilation, and air conditioning system (valued at $4.9 million). Also, the
revised DD Form 1391s did not clearly describe the need for repairs because PWD
officials did not identify specific deficiencies with the buildings. In addition, Camp
Lejeune officials did not sign the DD Form 1391s as required by MCO P11000.5G.4
Because Camp Lejeune officials did not sufficiently complete or sign the DD Form
1391s, PWD officials could not substantiate that repairs were necessary or that
responsible officials reviewed the project documents for completeness and accuracy.

Supporting Documents for Most Repairs Were Missing
Although PWD officials properly supported about $1.2 million in repairs for the
Administrative Buildings Project, they did not have documentation to support the
remaining $20.5 million in repairs. MCO P11000.5G states that repairs are usually
identified during inspections required by MCO P11000.7C, “Real Property Facilities
Manual, Volume III, Facilities Maintenance Management,” February 18, 1994.
MCO P11000.7C requires that inspection forms detect each deficiency in a building and
requires the most recent inspection forms be retained in building’s records.

According to PWD officials, they physically inspected each building, identified
deficiencies, and recorded the results on inspection forms. PWD officials recorded the
buildings’ overall conditions in the internet Navy Facilities Assets Data Store, a
Web-based database. PWD officials stated that they then discarded the inspection forms.
According to the database, the overall condition for five of the six buildings was
“substandard,” and one building was “inadequate.”5 However, PWD officials could not
identify specific deficiencies to substantiate those conditions because they discarded the
inspection forms. In addition, PWD officials did not have evidence that they conducted
the building inspections, as required by MCO P11000.7C.




4
  MCO P11000.5G states that a DD Form 1391 should be signed and dated by the commanding officer, staff
civil engineer, or the public works officer as the responsible official.
5
  According to a Camp Lejeune Facilities Evaluation Worksheet, facilities (buildings) are rated as adequate,
substandard, inadequate, or not needed. “Substandard” means a building has significant problems that
degrade its functionality or the estimated costs to make the building “adequate” exceed 25 percent of the
building’s replacement cost. “Inadequate” means the building has major problems that impair or prevents
its functionality or that the estimated costs to make the building “adequate” exceed 75 percent of the
building’s replacement cost.

                                                     4

NAVFAC Mid-Atlantic contracting officials provided inspection reports for hazardous
materials that architectural and engineering firms prepared in FY 2005, FY 2007, and
FY 2009. Those reports indicated that there was asbestos and lead paint in the buildings.
Based on those reports, the removal of asbestos and lead paint was necessary, although
the estimated cost for the removal was about $1.2 million of the Administrative Buildings
Project’s total cost. PWD officials could not substantiate that the remaining
$20.5 million in repairs were necessary.

Economic Analyses Were Unreliable
PWD officials did not develop complete and reliable economic analyses for the
Administrative Buildings Project. MCO P11000.5G requires that economic analyses
comply with NAVFAC Publication-442, “Economic Analysis Handbook,”
(the Handbook), October 1993. The Handbook states that an economic analysis is a
systematic approach to identify, analyze, and compare costs and benefits of alternative
courses of action to achieve a given set of objectives. A six-step approach is used
consisting of defining the objective, generating alternatives, formulating assumptions,
determining costs and benefits, comparing costs and benefits and ranking alternatives,
and performing sensitivity analysis.

Although PWD officials developed an economic analysis for each building, they did not
properly complete any of the six steps outlined in the Handbook. For example, PWD
                                        officials wrote objectives that favored repairs, did
    PWD officials wrote objectives      not fully identify the costs and benefits, and did
     that favored repairs, did not      not perform sensitivity analyses. PWD officials
       fully identify the cost and      used inappropriate methodologies and data
     benefits, and did not perform      sources that made their economic analyses
          sensitivity analyses.         unreliable. For example, officials relied on
                                        guidance from the U.S. Air Force, used a discount
rate from a previous year, and used incorrect replacement values for new construction
costs. PWD officials stated that their economic analyses could have been better prepared,
but their emphasis was on repairing the buildings as opposed to new construction.
Because PWD officials did not complete their economic analyses in accordance with the
Handbook, their economic analyses were unreliable. As a result, PWD officials could not
substantiate that repairs for the Administrative Buildings Project were cost effective.

Environmental Exclusions Were Not Properly Supported
PWD officials did not prepare documentation to support environmental reviews of the
Administrative Buildings Project. MCO P5090.2A states installations must complete a
Request for Environmental Impact Review (REIR) for all projects that have the potential
to impact the human environment. The REIR should contain enough information to
enable environmental planning staff to determine whether the use of a categorical
exclusion is appropriate.6 Environmental planning staff reviews REIRs to determine


6
A categorical exclusion exempts a project from further NEPA reviews, including Environmental
Assessments and Environmental Impact Statements.

                                                  5

whether the proposed action is exempt from requirements listed in the NEPA. If
approved for exclusion, the environmental planning staff annotates the categorical
exclusion on the REIR, signs it, and returns the REIR to PWD for processing.
Additionally, PWD officials must complete REIRs on the form required by an
installation’s commanding officer. Camp Lejeune Base Order 11000.1D,
“Environmental Impact Review Procedures,” April 4, 2000, requires the use of the REIR.

PWD officials did not prepare REIRs for buildings 118, 205, 213, and 417.7 Instead,
PWD officials sent an e-mail to Camp Lejeune’s Environmental Management Division
and requested a categorical exclusion for the repairs. Environmental Management
Division officials approved categorical exclusions for the four buildings because they
concluded that the project was for “routine maintenance and repair and improvements to
non-historic buildings and structures in the Camp Lejeune Complex.” Environmental
Management Division officials provided PWD officials with a decision memorandum for
the four buildings. After obtaining categorical exclusions, PWD officials placed an
incomplete REIR in the administrative record for the buildings. The decision
memorandum and the REIR did not include any information on the four buildings.

According to Environmental Management Division officials, “these projects are so
routine and minor, with such limited potential for environmental impact, that they do not
warrant individual documentation on a project by project basis.” The officials further
explained that preparing REIRs and decision memoranda for individual projects would be
“administratively overwhelming.” As a result, PWD officials were not able to
substantiate that they either complied with NEPA or have not adversely affected the
environment.

Project Validation Did Not Comply With Guidance
HQMC officials did not revalidate the Administrative Buildings Project before
submitting it as a Recovery Act project. MCO P11000.5G states that HQMC officials
must validate projects with a total funded cost greater than $300,000 to determine
whether projects are reasonable to fund. It also states “projects validated will normally
be planned for execution 2 years from the year of validation.” HQMC officials validated
the Administrative Buildings Project in FY 2000 (November 1999), but they did not fund
the project until FY 2009 (more than 9 years later). During the more than 9-year lapse,
changes occurred that should have prompted HQMC officials to revalidate the project.
Specifically, the following changes occurred:

    •   Marine Corps standards for validating projects were updated;
    •   an extended time lapse between project validation and project execution; and
    •   the project’s estimated cost increased by 255 percent.




7
 PWD officials prepared REIRs for buildings 312 and 313 because these buildings were eligible for listing
in the National Register of Historic Places.

                                                    6

In FY 2004, the Commandant of the Marine Corps issued MCO P11000.5G, which
required HQMC officials to validate projects using new standards. According to HQMC
officials, the new standards applied to the Administrative Buildings Project; however,
they did not revalidate the project using these standards. The time lapse between the
project’s validation and execution conflicted with guidance in MCO P11000.5F and
MCO P11000.5G. The 2-year period for the project ended in November 2001; yet, the
project was not executed until Recovery Act funds were received in FY 2009. Lastly, in
FY 2008, PWD officials revised the project’s DD Form 1391s increasing the overall
project cost by $15.6 million (255 percent). For example, the November 1999
DD Form 1391, shows an estimated repair cost for building 205 of $1.1 million. But in
June 2008, PWD officials estimated the repair cost at $3.6 million, an increase of about
$2.5 million (227 percent). The project should have been revalidated due to the new
standards, the prolonged time lapse, and the project cost increase of $15.6 million.

Without complete files, including DD Form 1391s, economic analyses, and
environmental policy act reviews, decisions to fund projects using Recovery Act funds
are premature and unsupportable. Additionally, the Commanding Officer, Marine Corps
Base Camp Lejeune should require unfunded projects previously submitted by PWD to
be revalidated to determine if they are eligible for funding under MCO P11000.5G.

Recovery Act Funds Were Distributed, but the
Administrative Buildings Project Was Over-Obligated
Although Recovery Act funds for the Administrative Buildings Project were distributed
promptly, the project was over-obligated.8 According to funding documents, HQMC
officials allocated $21.322 million in Recovery Act funds to Camp Lejeune for the
Administrative Buildings Project in March 2009. From March 2009 through
September 2010, HQMC officials allocated an additional $386,631 of Recovery Act
funds from other Recovery Act-funded projects to offset cost variations in the
Administrative Buildings Project. This increased the total allocation for the
Administrative Buildings Project to approximately $21.709 million. HQMC officials
made these realignments in accordance with Under Secretary of Defense
(Comptroller)/Chief Financial Officer memoranda, “Project Cost Variations During
Execution of American Recovery and Reinvestment Act Expenditure Plans for
Infrastructure Investments,” May 7, 2009, and “Revision to Policy Regarding Project
Cost Variations During Execution of American Recovery and Reinvestment Act
Expenditure Plans for Infrastructure Investments,” January 11, 2010. Of the
approximately $21.709 million received from HQMC, through Camp Lejeune, NAVFAC
Mid-Atlantic contracting officials obligated approximately $21.746 million for the
Administrative Buildings Project based on Camp Lejeune officials’ certifications of
available funds, resulting in $37,015 of over-obligations.



8
 Over-obligated means orders placed, contracts awarded, services received, or similar transactions during
an accounting period that will require payment during the same or future period in excess of total available
funds.

                                                     7

The $37,015 in excess obligations constitute a potential Antideficiency Act violation of
31 U.S.C. § 1517(a) (1982) (See Finding B).

Initial Execution of the Administrative Buildings Project
Was Performed
NAVFAC Mid-Atlantic contracting officials performed initial execution of the project.
In our evaluation of the initial execution, we determined whether the contract was
competitively solicited and awarded with full transparency, and whether it contained the
FAR clauses required by implementation guidance for the Recovery Act.

NAVFAC Mid-Atlantic contracting officials competitively awarded 4 firm-fixed price
contracts for repair of 6 administrative buildings at approximately $20.7 million. 9 The
contracts were awarded as small-business set-asides, and the awards were based on price
and past performance. At the time of our review, all 4 contractors were registered in the
Central Contractor Registration and the Online Representations and Certifications
Application, which both cited the contractors as small businesses. In addition, the
Excluded Parties List System did not show any of the 4 contractors as debarred.

NAVFAC Mid-Atlantic contracting officials properly recorded contract actions to
facilitate full transparency. OMB Memorandum M-09-15 describes requirements for
reporting Recovery Act-funded actions in the Federal Procurement Data System and
publicizing actions on the Federal Business Opportunities web site. Contracting officials
properly announced the solicitations and contract awards on the Federal Business
Opportunities web site and reported the contract award in the Federal Procurement Data
System.

The contracts originally omitted 4 FAR clauses; however, NAVFAC Mid-Atlantic
contracting officials subsequently modified the contracts to include these clauses in the
Administrative Buildings Project. NAVFAC Mid-Atlantic contracting officials
incorporated most of the FAR clauses required by the Recovery Act. We identified
4 missing contract clauses required by FAR Part 23, “Environment, Energy and Water
Efficiency, Renewable Energy Technologies, Occupational Safety, and Drug-Free
Workplace.” According to OMB Memorandum M-09-15, agencies must comply with the
requirements for FAR Part 23, when using Recovery Act funds to acquire supplies and
services. The contracts omitted the following clauses required by FAR Part 23:

    •	   FAR 52.223-11, “Ozone-Depleting Substances,”
    •	   FAR 52.223-12, “Refrigeration Equipment and Air Conditioner,”
    •	   FAR 52.223-15, “Energy Efficiency in Energy-Consuming Products,” and
    •	   FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
         and Construction Contracts.”



9
 Approximately $936,235 in contract modifications and support costs increased the project cost to
$21.7 million.

                                                    8

Without these clauses, NAVFAC Mid-Atlantic officials could not hold contractors
accountable for all Recovery Act requirements or ensure the protection or improvement
of the environment. However, during our review, contracting officials modified 4
contracts to include the missing FAR clauses.

Processes Were in Place to Track and Report the
Administrative Buildings Project
NAVFAC Mid-Atlantic contracting officials had processes in place to track and report
the Administrative Buildings Project. The Administrative Buildings Project’s task orders
contained Federal Acquisition Regulation clause 52.204-11, “American Recovery and
Reinvestment Act–Reporting Requirements,” March 2009, which requires the contractors
to report project information to www.FederalReporting.gov. All four contractors
submitted quarterly reports, including the number of jobs created and retained.

Recommendations, Management Comments, and Our
Response
A.1. We recommend the Commanding Officer, Marine Corps Base Camp Lejeune:

       a. Require Marine Corps Base Camp Lejeune Public Works officials to
track and assess the completion of DD Form 1391s, economic analyses, and National
Environmental Policy Act reviews in accordance with Marine Corps Order
P11000.5G, “Real Property Facilities Manual, Volume IV, Facilities Project
Manual,” September 30, 2004.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding on behalf of the Commanding Officer, Marine Corps Base Camp Lejeune,
agreed and stated that Camp Lejeune Public Works Department officials have historically
complied with the intent of this recommendation and have complied for the most recent
validation review of projects submitted to Headquarters, U.S. Marines Corps in January
2011. The Assistant Secretary also stated that due to an accelerated process to support
the Recovery Act some efforts were streamlined but still met the intent of the Marine
Corps Order.

Our Response
The Assistant Secretary’s comments were partially responsive. Though the Assistant
Secretary stated that Camp Lejeune Public Works Department officials has complied
with Marine Corps Order P11000.5G, she did not address Public Works Department
officials efforts to track and assess the completion of DD Forms 1391s, economic
analyses, and the National Environmental Policy Act. We request the Assistant Secretary
address Public Works Department official’s efforts and provide comments on the final
report.



                                           9

        b. Review unfunded projects prepared and submitted by Public Works
officials for compliance with Marine Corps Order P11000.5G, “Real Property
Facilities Manual, Volume IV, Facilities Project Manual,” September 30, 2004. At a
minimum, the review should identify areas that need improvement, ensure planning
documents are properly prepared and report the complete results to the Deputy
Commandant, Installations and Logistics.

Department of the Navy Comments
The Assistant Secretary agreed and stated Camp Lejeune Public Works Department
officials have historically complied and will continue to comply with this
recommendation as part of the normal facilities projects execution process. She further
stated that Recovery Act projects were on an accelerated time table. However, the
project corrected deficiencies while complying with Recovery Act objectives.
Additionally, the Assistant Secretary stated, in general, project documentation is
reviewed prior to project execution in accordance with Marine Corps procedures.
Headquarters, U.S. Marine Corps conducts a Special Projects Education Workshop semi­
annually to reinforce the requirement for complete and accurate documentation of
Facilities, Sustainment, Restoration, and Modernization projects.

Our Response
The Assistant Secretary’s comments were partially responsive. Although the
Administrative Buildings Project may have been on an accelerated time table, Camp
Lejeune Public Works Department officials should have complied with Marine Corps
Order P11000.5G. The Commanding Officer, Marine Corps Base Camp Lejeune, should
ensure Camp Lejeune Public Works officials consistently comply with Marine Corps
Order P11000.5G at all times. We request the Assistant Secretary address any corrective
actions planned to address the deficiencies and provide comments on the final report.

A.2 We recommend the Deputy Commandant, Installations and Logistics assess
Marine Corps Base Camp Lejeune’s projects that were validated before the
issuance of Marine Corps Order P11000.5G, “Real Property Facilities Manual,
Volume IV, Facilities Projects Manual,” September 30, 2004, but that have not yet
been funded to determine whether it is necessary to revalidate those projects.

Department of the Navy Comments
The Assistant Secretary agreed and stated the U.S. Marine Corps will implement a plan to
review projects validated with a planned execution prior FY 2004 to ensure compliance
with Marine Corps Order P11000.5G. The review will be completed by June 30, 2012.

Our Response
The Assistant Secretary’s comments were responsive, and no further comments are
required.




                                          10

Finding B. Untimely Recording of Contract
Modifications Caused Over-Obligation of the
Administrative Buildings Project
NAVFAC Mid-Atlantic contracting officials over-obligated the Administrative Buildings
Project by $37,015. The over-obligation occurred because neither NAVFAC Mid-
Atlantic nor Camp Lejeune officials recorded contract modifications in the SABRS in a
timely manner, causing the SABRS to overstate the balance of available funds and Camp
Lejeune PWD officials to improperly certify the availability of funds for the project. As
a result, a potential Antideficiency Act violation under 31 U.S.C. § 1517(a) (1982) may
have occurred.

Antideficiency Act Prohibits Over-Obligation
According to 31 U.S.C. § 1517(a) (1982), officers and employees of the
U.S. Government may not obligate more funds than authorized by agency regulations.
According to DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
volume 14 (2010), Government officers and employees may not obligate funds in excess
of allocations. According to the regulation, fund managers must ensure that officials
record all transactions in the accounting records in a timely manner. The guidance also
requires the initiation of a preliminary review in the event of a potential Antideficiency
Act violation. Lastly, the regulation states that when a draft report10 alleges a potential
violation and the DoD Component agrees with that determination, the DoD Component
must report on the potential violation within 2 weeks and complete a preliminary review
within 14 weeks of the issuance of the final report, using the procedures in DoD
Regulation 7000.14-R, volume 14, chapter 3, sections 0301 and 0302.

Delays in Recording Obligations Led to Improper
Certification of Funds and Over-Obligation
NAVFAC Mid-Atlantic and Camp Lejeune officials did not record contract modifications for
the Administrative Buildings Project in SABRS in a timely manner. MCO 7300.21A,
                                          “Marine Corps Financial Management Standard
      Three contract modifications,       Operating Procedure Manual,” October 2, 2008,
      valued at over $62,142, were        states that fund managers must record
   recorded as obligations in SABRS       obligations in SABRS within 10 days from the
       more than 60 days after the        date the obligation incurred. Three contract
        contracts were awarded.           modifications, valued at $62,142, were recorded
                                          as obligations in SABRS more than 60 days
after the contracts were awarded. The following table provides a summary of the three
contract modifications.


10
  According to Volume 14, chapter 3 page 3-7 of the DoD Financial Management Regulation the GAO,
DoD IG, military department audit agency or other organizations external to a DoD Component may advise
in a report that a potential violation may have occurred.


                                                 11

     Summary of Contract Modifications That Were Not Timely Recorded in SABRS
                                         Date of      Date      Number of Days
        Contract / Order     Amount       Award     Recorded to Record Award
     N40085-09-D-5322 / 0008             Sept. 28,   Nov. 29,
        (Amendment 04)11     $22,753       2010       2010             62
     N40085-09-D-5341 / 0008             Sept. 07,   Nov. 15,
         (Amendment 05)      $23,682       2010       2010             69
     N40085-09-D-5353 / 0004             Sept. 24,   Nov. 29,
         (Amendment 05)      $15,707       2010       2010             66
             Total           $62,142

The delay in recording the $62,142 in SABRS allowed PWD officials to believe that
additional funds were available in September 2010 for the Administrative Buildings
Project. Thus, PWD officials improperly certified to NAVFAC Mid-Atlantic contracting
officials that additional funds were available for contract modifications to the project.
Based on the improper certifications, NAVFAC Mid-Atlantic contracting officials
awarded additional contract modifications, increasing the total obligations to
$21.746 million. By awarding these modifications, NAVFAC Mid-Atlantic contracting
officials over-obligated the Administrative Buildings Project by $37,015 because HQMC
had only allocated $21.709 million for the repairs.

HQMC officials stated that they believed the over-obligation of Recovery Act funds for
the project was unintentional and internal control problems adversely impacted the
completeness of the obligation balances for the Administrative Buildings Project in
SABRS. HQMC officials further stated they believe a DoD-wide contracting system,
Procurement Desktop Defense, was not sufficiently interfacing with SABRS. As a result,
not all contract modifications were recorded timely. In addition, HQMC officials stated
that they have efforts underway to assess and resolve this issue.

Potential Antideficiency Act Violation Should Be Reviewed
HQMC officials took corrective action by realigning $37,015 in bid savings from other
Recovery Act-funded projects to correct the over-obligation and directed Camp Lejeune
                                         officials to assess and correct the controls that
    HQMC officials took corrective       caused the obligation. Although HQMC
    action by realigning $37,015 in      officials realigned funds to correct the
   bid savings from other Recovery       over-obligation, an Antideficiency Act violation
         Act-funded projects…            under 31 U.S.C. § 1517(a) (1982) may have
                                         occurred. HQMC and Camp Lejeune officials
can avoid an Antideficiency Act violation by demonstrating that at least $21.746 million
was available to the Administrative Buildings Project at the time of the initial


11
 This task order modification included funds split between two Sub-Contract Line Item Numbers;
however, SABRS did not reflect the obligations under Sub-Contract Line Item Number 00202.

                                                  12

over-obligation. If that documentation is not available, HQMC and the Assistant
Secretary of the Navy (Financial Management and Comptroller) should conduct a
preliminary review of the potential violation in accordance with DoD Regulation
7000.14-R, volume 14.

Recommendations, Management Comments, and Our
Response
B.1. We recommend the Deputy Commandant, Programs and Resources:

       a. Coordinate with the Assistant Secretary of the Navy (Financial
Management and Comptroller) to initiate a preliminary review. If necessary,
conduct an investigation in to whether an Antideficiency Act violation under section
1517(a), title 31, United States Code occurred if $21.746 million was not available to
Project LE02ADMM, “Repair HVAC/Mechanical/Electrical/Roofs and Windows
Various Admin Facs,” on the date of the over-obligation. Additionally, comply with
the reporting requirements in DoD Regulation 7000.14-R, “DoD Financial
Management Regulation,” volume 14 (2010).

Department of the Navy Comments
The Assistant Secretary agreed and stated that action has been initiated to gather facts and
germane information in order to factually establish whether a potential reportable
violation of the Anti-Deficiency Act has occurred and a preliminary investigation is
warranted.

Our Response
The Assistant Secretary’s comments were responsive. However, the Assistant Secretary
did not provide estimated dates of completion for these actions. Therefore, we request
the Navy to provide comments on the final report that include a completion date for the
planned actions.

      b. Closely monitor ongoing assessments to resolve the interfacing issues
between Procurement Desktop Defense and the Standard Accounting, Budgeting,
and Reporting System.

Department of the Navy Comments
The Assistant Secretary agreed and stated the Marine Corps will conduct a cradle to
grave assessment of the transactions in questions. The target date for completion of this
assessment is December 31, 2011.

Our Response
The Assistant Secretary’s comments were responsive, and no further comments are
required.



                                            13

B.2. We recommend the Commander, Marine Corps Base Camp Lejeune conduct
refresher training on the requirements of MCO 7300.21A, “Marine Corps Financial
Management Standard Operating Procedure Manual,” October 2, 2008, for the
recording of obligations in the Standard Accounting, Budgeting, and Reporting
System.

Department of the Navy Comments
The Assistant Secretary agreed and stated the Commander, Marine Corps Base Camp
Lejeune will conduct refresher training on properly recording obligations. The target
date for completing the training is December 31, 2011.

Our Response
The Assistant Secretary’s comments were responsive, and no further comments are
required.




                                           14

Appendix A. Scope and Methodology
We conducted this performance audit from October 2009 through August 2011 in
accordance with generally accepted government auditing standards. Generally accepted
government auditing standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To review DoD’s implementation of plans for the Recovery Act, we audited the planning,
funding, initial project execution, and tracking and reporting of Administrative Building
Project to ensure personnel at Camp Lejeune complied with Recovery Act and
subsequent related guidance. Specifically, we determined whether:

           •	 the selected project was adequately planned to ensure the appropriate use
              of Recovery Act funds (Planning);
           •	 funds were distributed in a prompt, fair, and reasonable manner (Funding);
           •	 the contract awarded was transparent, competed, and contained required
              Recovery Act Federal Acquisition Regulation clauses (Initial Execution);
              and
           •	 recipients’ use of funds was transparent to the public; and the benefits of
              the funds were clearly, accurately, and timely reported (Tracking and
              Reporting).

The Administrative Buildings Project, valued at $21.7 million, is a Recovery Act project
that consisted of major interior and exterior repairs to various administrative facilities at
Camp Lejeune. PWD officials scheduled six administrative buildings (118, 205, 213,
312, 313, and 417) for renovations as part of this Recovery Act project.

We obtained and examined Government solicitations and contracts, contract
specifications, funding documents, economic analyses, DD Form 1391s, cost estimates,
and environmental planning documents related to six buildings. We compared the
PWD’s documents and information to relevant criteria to determine whether they were
properly prepared, met Marine Corps’ project planning requirements, and were properly
and promptly funded. We collected financial information from SABRS and the Program
Budget Information System and compared that data to funding documents, commitment
documents, contracts, contract modifications, and other data to determine whether the
total obligations for the Administrative Buildings Project exceeded the total funds
allocated. We examined data from the Recovery Act reporting Web sites to determine
whether the initial tracking, reporting, and transparency requirements of the Recovery
Act were met. Additionally, we interviewed appropriate Government personnel from
HQMC to obtain an understanding of how projects were selected for Recovery Act
funding, and we interviewed PWD officials about the project’s planning.



                                             15

Use of Computer-Processed Data
During our audit, we obtained and used computer-processed data from the internet Navy
Facilities Assets Data Store, http://www.recovery.gov, SABRS, the Program Budget
Information System, and other systems. We compared the DD Form 1391s, Economic
Analyses, and NEPA data to relevant criteria to determine whether they were properly
prepared. We concluded that the DD Form 1391s, Economic Analyses, and NEPA data
were not sufficiently prepared. We also determined that document conclusions were not
adequately supported and were unreliable. In the case of SABRS and the Program
Budget Information System, we relied on computer-processed data, and the accuracy of
the computer data was important to our audit results. We verified the accuracy of the
computer-processed data from SABRS and the Program Budget Information System by
comparing the financial data to source documents.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, personnel in the Quantitative
Methods Division (QMD) of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMD personnel selected most audit
projects and locations using a modified Delphi technique, which allowed them to
quantify the risk based on expert auditor judgment and other quantitatively developed
risk indicators. QMD personnel selected 83 projects with the highest risk rankings.

QMD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act funds being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, National Guard units, and public works projects
managed by the U.S. Army Corps of Engineers.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Office of the
Inspector General, and the Military Departments have issued reports and memoranda
discussing DoD projects funded by the Recovery Act. You can access unrestricted
reports at http://www.recovery.gov/accountability.




                                           16

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending
      September 30, 2009, and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 200912

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 200912

   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 200913

   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 200913

                                           17

     •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
        Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
        Clause 52.204-11,” September 30, 200913

     •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
        and Reinvestment Act–Data Quality, Non-Reporting Recipients, and Reporting of
        Job Estimates,” December 18, 200913

     •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
        and Reinvestment Act,” March 22, 201013

     •	 White House Memorandum, “Combating Noncompliance With Recovery Act
        Reporting Requirements,” April 6, 201013

     •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
        Compliance under the American Recovery and Reinvestment Act,” May 4, 201013




Notes
12
   Document provides Government-wide guidance for carrying out programs and
activities enacted in American Recovery and Reinvestment Act of 2009. The guidance
states that the President’s commitment is to ensure that public funds are expended
responsibly and in a transparent manner to further job creation, economic recovery, and
other purposes of the Recovery Act.
13
  Document provides Government-wide guidance for carrying out the reporting
requirements included in section 1512 of the Recovery Act. The reports will be
submitted by recipients beginning in October 2009 and will contain detailed information
on the projects and activities funded by the Recovery Act.



                                           18

Department of the Navy Comments





                  Click to add JPEG file




                                 19

Click to add JPEG file




               20

Click to add JPEG file




               21

